No.
In the

Supreme Court of the United States
CODY JAMES MARTINEZ, Petitioner
v.
STATE OF ARIZONA, Respondent
On Petition for Writ of Certiorari to the
Supreme Court of Arizona
Motion for Leave to Proceed
In Forma Pauperis
Pursuant to Rule 39.1 of this Court, Petitioner hereby asks leave to file
the attached Petition for Writ of Certiorari to the Arizona Supreme Court
without prepayment of fees or costs and to proceed in forma pauperis.
Counsel was appointed pursuant to Ariz. Rev. Stat. ยง 13-4041 and Ariz. R.
Crim. P. 32.5 in the Arizona Supreme Court.
Dated March 22, 2021.
ERIN M. CARRILLO
The Carrillo Law Firm, PLLC
23 N. Stewart Avenue
Tucson, Arizona 85716

s/S. Jonathan Young
S. JONATHAN YOUNG
Post Office Box 42245
Tucson, Arizona 85733-2245
(520) 795-0525
jon@williamsonandyoung.com
Counsel of Record for Petitioner

